2311 Douglas Street

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

IN RE UMB BANK, N.A., and
COLORADO BONDSHARES, a Tax-Exempt Fund,
Petitioners,
v.

LANDMARK TOWERS ASSOCIATION, INC., a
Colorado nonprofit corporation, by Miller Frishman
Group, LLC as Receiver for 7677 East Berry
Avenue Associates, L.P., its Declarant,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8141 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of. August, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE +
General Notary : Mite, & 2 b J,
State of Nebraska = A e

Notary Public Affiant 38452

My Commission Expires Nov 24, 2020

 
